<html>
<title> - THE PRESIDENT'S IRAN DECISION: NEXT STEPS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 THE PRESIDENT'S IRAN DECISION: NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

                           Serial No. 115-77

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-285 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a> 
                                             
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
Vacant<greek-l>As of 10/24/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                
                                ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Olli Heinonen, Ph.D., senior advisor on science and 
  nonproliferation, Foundation for Defense of Democracies (former 
  Deputy Director General of the International Atomic Energy 
  Agency)........................................................     8
The Honorable Mark Wallace, chief executive officer, United 
  Against Nuclear Iran (former U.S. Ambassador to the United 
  Nations for Management and Reform).............................    20
Philip H. Gordon, Ph.D., Mary and David Boies Senior Fellow in 
  U.S. Foreign Policy, Council on Foreign Relations (former White 
  House Coordinator for the Middle East, North Africa, and the 
  Gulf Region)...................................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Olli Heinonen, Ph.D.: Prepared statement.........................    10
The Honorable Mark Wallace: Prepared statement...................    22
Philip H. Gordon, Ph.D.: Prepared statement......................    32

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    66

 
               THE PRESIDENT'S IRAN DECISION: NEXT STEPS

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for our 
opening statements, I will, then, recognize other members 
seeking recognition for 1 minute. We will, then, hear from our 
witnesses. And without objection, witnesses, your prepared 
statements will be made a part of the record, and members may 
have 5 days to insert statements and questions for the record, 
subject to the length limitation and the rules.
    Before we begin, I would like to welcome some distinguished 
guests in the audience. They are here from Israel and are 
taking part in the State Department's International Visitor 
Leadership Program. There you go in the back row. 
Coincidentally, they happen to be here this week as the 
subcommittee takes its first look at the Iran nuclear deal 
since President Trump made his announcement last week. We know 
this is an issue of great importance for our ally Israel, and 
this subcommittee, this committee, and, indeed, Congress 
understands the gravity of the situation for Israel, for the 
United States, for our friends and allies.
    So, with that, the chair now recognizes herself for such 
time as I may consume.
    Less than 2 weeks ago, President Trump announced that he 
would not certify the Iran deal under the requirements of the 
Iran Nuclear Agreement Review Act. All signs leading up to the 
certification deadline pointed to decertification. In a speech 
on U.S. policy toward Iran last month, Ambassador Haley laid 
out the pillars to be considered when determining Iranian 
compliance with the nuclear deal, the JCPOA itself, the U.N. 
Security Council Resolution 2231, and the Iran Nuclear 
Agreement Review Act.
    And I think that this is an important distinction because I 
know we are going to hear about Iran's technical compliance so 
that the IAEA and the other P 5+1 continue to believe that Iran 
is in compliance. So, how can the President decertify, they 
ask. Well, even if Iran was in full compliance with the JCPOA, 
which we know isn't the actual case, Iran has flouted the 
ballistic missile provisions of the U.N. Security Council 
Resolution 2231, and Iran's continued provocations underscore 
that the current status quo is not in the national security 
interest of the United States.
    We have to take a look at the totality of the threats and 
the current situation, work within the framework that we have, 
and use the tools we have at our disposal. Let us remember that 
the President, through his obligation from the Iran Nuclear 
Agreement Review Act, decided that he could not certify whether 
the suspension of sanctions related to Iran is appropriate and 
proportionate to the specific and verifiable measures taken by 
Iran with respect to terminating its illicit nuclear program.
    So, when the President announced that he would not certify, 
but remain in the deal for now while allowing for the 
opportunity to address its flaws, to strengthen it, I supported 
that decision. I think it is a sound strategic decision that 
allows us an opportunity to address some of the concerns we 
have with our allies, like the lack of EU designations against 
Iran for non-nuclear-related illicit activity.
    It gives us an opportunity to correct the record and get 
some of the promises and assurances that were given to Congress 
that haven't actually come to fruition, like when Secretary 
Kerry testified to Congress that Iran would be subject to ``24/
7 inspections'' and day-to-day accountability. Or when he 
testified that ``When it comes to verification and monitoring, 
there is absolutely no sunset in this agreement, not in 10 
years, not in 15 years, not in 20 years, not in 25 years, no 
sunset ever.'' Or when we were told that ``For the life of this 
agreement, however long Iran stays in the NPT and is living up 
to its obligations, they must live up to the Additional 
Protocol.''
    But, as we now know, we don't really have 24/7 anywhere 
anytime access, especially when it comes to military sites 
where we haven't even had any access at all. And we know that 
there are sunset provisions all throughout the deal, and there 
are dangerous sunset provisions in Resolution 2231, like the 
sunsets on the conventional military and missile embargoes, 
which will more than certainly make the region even more 
dangerous.
    We already see Iran sending support and arms to the 
Houthis, Hezbollah, Hamas, and others. Imagine what we will see 
when Iran has no restrictions on its ability to acquire 
conventional weapons or its ability to expand its missile 
program.
    We were also promised that Iran's non-nuclear-related 
activity would be addressed. Yet, despite assurances from 
Secretary Kerry after the JCPOA was agreed to, we have not seen 
a single designation from the EU on Iran since the JCPOA. Think 
about that. No new designations, no new sanctions, despite 
Iran's continued support for terror, its ballistic missile 
testing, and its abysmal human rights record. There was no 
threat of decertification from the United States for the first 
several rounds of certifications. Yet, there was no EU activity 
on Iran's other illicit activity. On the contrary, there were 
billions and billions of dollars in business agreements signed 
during that period. And I think now, while the President has 
decertified, this is precisely the opportunity to get together 
with our allies and see how we can get them back onboard on 
holding Iran accountable for its malign activities.
    This also gives us an opportunity to raise the bar and do 
what we should have done in the first place, guarantee that 
Iran can never become a nuclear weapon state, because, as I 
said from the very beginning, the deal sets such low benchmarks 
for Iran that it would be crazy for them not to comply with it, 
even though it has violated and bent and twisted the deal just 
to see how far it can go.
    Producing excess heavy water only to be bailed out by the 
U.S. and Russia, building and operating more advanced 
centrifuges than it should be allowed to operate, these are 
just some examples that we know about. With Iran, it would be 
safe to assume that there are other potential violations, like 
potential violations of Section T. But our P5+1 partners are 
right; this isn't just a U.S. unilateral issue. There are many, 
many interested parties.
    Unfortunately, some parties, like Russia, are intent on 
protecting its rogue allies and doing what it can to block any 
efforts to hold them accountable. Russia has already made it 
clear that it will not support giving access to Iran's military 
sites for verification of Section T. I wonder why. We just saw 
Russia veto a resolution at the U.N. Security Council that 
would have extended the investigation by international 
inspectors to determine those responsible for the chemical 
weapons attack in Syria.
    So, how do we address this in a way to ensure that the 
Iranian threat is contained? As we move forward, we must 
address what is best for our national security interest, the 
security of our friend and ally Israel, our allies in the Gulf, 
and the safety and security of the whole region. These are the 
very same allies who would be most directly impacted by a 
nuclear Iran, and they are the ones that have publicly 
expressed support for this administration's willingness to take 
our Iran policy in a new direction, one that addresses all of 
Iran's other illicit activities. We can't address Iran's threat 
without addressing the totality of the situation, and that is 
what we are here to do today.
    And with that, I am pleased and honored to recognize the 
ranking member, Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. Thanks for convening 
today's important hearing, and thanks to our witnesses for 
joining us.
    I would also like to acknowledge our friends from Israel 
who are here as part of the State Department's International 
Visitor Leadership Program, as we discuss an issue that is so 
important to the security of both of our nations.
    Two days ago we marked an anniversary. It is the type of 
anniversary, though, that we don't celebrate, but we mourn, 
because on October 23rd in 1983 two Hezbollah suicide bombers 
blew themselves up at the Marine barracks in Beirut, killing 
over 300 American and French servicemembers, peacekeepers, and 
civilians. This attack, like so many of Hezbollah's deadly 
terrorist activities over the past several decades, was 
sponsored and directed by Iran. And while the United States has 
since built memorials honoring the victims of that attack, 
Tehran builds a monument honoring the martyrs who perpetrated 
the attack.
    When the President gave his much-anticipated Iran 
strategies speech 2 weeks ago, he rightly reminded the American 
people about the nature of the Iranian regime, a regime that 
took control during the Islamic revolution in 1979 by attacking 
our Embassy and taking dozens of American citizens and 
diplomats hostage for 444 days. It is a regime that, since that 
time, has sought to spread its revolution through proxy 
militias and terror groups like Hezbollah, a regime that was 
directly responsible for killing and maiming American soldiers 
in Iraq, a regime that calls America ``the Great Satan,'' calls 
Israel ``the Little Satan,'' supports and equips terror groups 
trying to wipe Israel off the map.
    It is a regime that saw Syrian President Bashar Assad 
torturing and murdering his citizens and sent Hezbollah and the 
Revolutionary Guard Corps to help him. Half a million Syrians 
are now dead, with millions forced to flee their homes and 
their country. A regime that today is stoking unrest in 
countries across the region to spread its influence through 
Iraq, Syria, Lebanon, and the Gulf. And this is a regime that 
in 2009, when Iranian citizens took to the streets to protest 
election results in a system that is anything but free, 
responded with a brutal crackdown, including the since famous 
YouTube video of Iranian college student Neda Agha-Soltan being 
killed in the street.
    Human rights violations, exporting terrorism, threatening 
us and our allies. That is why, when we saw Iran building a 
secret and illicit nuclear weapons program, the United States 
and the world rightly became gravely concerned. It is a 
terrifying thought to imagine this same regime with control of 
nuclear weapons.
    Now I don't want to relitigate the Iran nuclear deal. I 
voted against the JCPOA. But we must focus now on the most 
effective way to counter the Iranian threat in today's reality. 
The President spoke of working with our allies to counter 
Iran's malign activities, to impose punishing sanctions outside 
the nuclear deal, to counter the proliferation of missiles and 
weapons, and to deny the regime all paths to a nuclear weapon.
    While the President was right to give important context on 
Iran's continued threats and to lay out an overarching 
strategy, I have been clear that I believe that the President, 
in threatening to walk away from the deal, will make it harder 
for us to achieve the changes that we need in policy to 
strengthen our efforts to combat Iran's dangerous behavior, not 
because my views of the deal have changed, but because if we 
are to tackle Iran's dangerous activities, we must be in a 
position to lead the world to do it.
    This whole debate has become a distraction. We should be 
shoring up support from our allies to go after Iran's malign 
activities, activity that was never a part of the JCPOA. The 
chairman of the Joint Chiefs, in testifying in the Senate last 
month, said, ``Iran is adhering to the JCPOA obligations. The 
JCPOA has delayed Iran's development of nuclear weapons.'' But 
he also said that Iran has not changed its malign activity in 
the region since the JCPOA was signed.
    It is precisely that activity that we must aggressively 
target. The truth is, I know that everyone in this room agrees 
with the overarching goal. We agree that we cannot allow Iran 
to develop a nuclear weapon, and we know that they cannot be 
trusted, so we have to maintain intrusive inspections to ensure 
compliance. We all understand the need to push back against 
their support for terror and ongoing military expansion of the 
region, and we all painfully know that more must be done to 
bring home Americans who are being cruelly and unjustly held in 
Iran, including my constituent Bob Levinson.
    And as we look specifically to the JCPOA, I think it is 
important to understand why the President's top national 
security advisors have cautioned against walking away from the 
deal. Unilaterally abandoning the nuclear deal without clear 
cause would leave the United States isolated and make it 
impossible to do exactly what the President says that we must, 
lead the other nations in the world, lead our allies to counter 
Iran.
    As Congress debates next steps, I hope that the President 
will honor his word to work closely with Congress and our 
allies. The simple truth is that we here in this body cannot 
simply and unilaterally change an internationally-negotiated 
agreement. That does not mean, however, that we cannot make 
progress. This administration and this Congress can and should 
work with our allies to enforce the restrictions on Iran that 
exist under the JCPOA, to support the IAEA's ability to verify 
Iran in compliance, and to crack down on all of Iran's malign 
activities in the region outside of the JCPOA.
    The fact that so many of the critical restrictions on 
Iran's nuclear program will begin to expire in the coming years 
should give us pause for concern. The Iranian regime cannot be 
trusted with an industrial-size nuclear enrichment program 
which could become possible when the sunsets hit, but we can 
make firm our commitment to preventing the emergence of an 
Iranian threshold nuclear state while also honoring our 
commitments under the JCPOA.
    And finally, if this President means what he says about 
working with Congress, I hope that he will send his national 
security team to meet with me and the other Democrats on this 
committee who are committed to addressing Iran's dangerous 
behavior. Countering Iran has long been a bipartisan issue here 
on the Hill. Let's not allow this current political environment 
to undermine that. The stakes are simply too high.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    And I have the following members who I will recognize for 1 
minute. If you would like to be added, please let us know. It 
is Mr. DeSantis, then Mr. Cicilline, and Mr. Schneider.
    So, Mr. DeSantis is recognized.
    Mr. DeSantis. Well, I thank my friend from Florida for 
holding this hearing. It is important.
    I think it is pretty clear, after living under this deal, 
that if we continue on this course with Iran, 5 or 10 years 
down the road we are going to be in the same place that we are 
with North Korea right now, only this is a regime motivated by 
a militant Islamic ideology and an apocalyptic worldview. So, 
simply status quo I don't think is going to work.
    I note that, for talks about Iranian violations, which they 
have done, some people try to say that this has been very 
successful. The fact is we don't have access to all of their 
sites. You can't go into their military site and inspect their 
military facilities. So, the idea that we know what Iran has 
been up to, we don't. It is not an effective regime. They 
frontloaded all the benefits to Iran at the outset, and it is 
not something that is going to lead to a permanently disarmed 
Iran. So, let's fix it. Let's get it right. And I appreciate 
the President's decertification, but that is just the first 
step and we need to do a lot more.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chairman. I want to thank 
you and Ranking Member Deutch for this important hearing.
    I would like to welcome our Israeli friends who are 
visiting us here today.
    And, of course, welcome to our distinguished panel, and I 
look forward to hearing from all of you.
    One of the most powerful arguments that was made in support 
of the agreement to prevent Iran from being a nuclear weapon 
state is that it will strengthen our ability to respond 
aggressively and effectively to the malign and increasingly 
aggressive behavior of this regime, and at the same time will 
fortify our partnerships and alliances around the world that 
are really essential to doing this successfully.
    And so, in that spirit, I am very, very concerned about the 
President's lack of leadership on this in terms of simply 
refusing to certify it without any basis for that, creating 
great uncertainty and undermining, frankly, our ability to 
effectively work with our partners in the region to respond to 
the ongoing malignant activities of Iran. And so, I will 
conclude by associating myself with the very thoughtful remarks 
of my distinguished colleague from Florida, Mr. Deutch.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Schneider.
    Mr. Schneider. Thank you, Chairman. Thank you for convening 
this meeting.
    And as my colleague from Rhode Island, I will associate 
myself with the remarks from our colleague from Florida. I 
thought they were wonderful.
    I want to welcome our witnesses. Thank you for joining us.
    And also join in welcoming our guest from Israel, Brokim 
Abayim.
    Preventing Iran from acquiring a nuclear weapon and curbing 
their malign regional and global influence is of paramount 
importance for American national security and the security of 
our allies. We must be clear-eyed in what actions move us 
closer and those that move us further away from this objective.
    While I oppose the JCPOA, now that it is in place, we must 
aggressively and rigorously enforce it. The urgent 
responsibility of our Government at this time, in conjunction 
with our partners and our regional allies, is to develop that 
comprehensive strategy that will commit the necessary resources 
to work to close the gaps and reduce the risk of the JCPOA, 
including those sunset provisions.
    I believe that President Trump's decision not to certify 
under the terms of INARA jeopardizes the restrictions already 
in place on Iran's nuclear activity at a time when we should be 
urgently working to shore up the Iran deal's shortcomings and 
holding Iran to account for its dangerous behavior outside the 
agreement. That includes Iran's support for Hezbollah and other 
terrorist proxies, illicit weapons transfers, ballistic missile 
program, and its human rights abuses. The President's decision 
risks isolating us from our international allies at the exact 
moment we need to work together to accomplish these goals.
    I look forward to hearing from our witnesses today on how 
best to move forward to put an end to Iran's destabilizing 
behavior in the region and around the world, and ensure Iran is 
never able--never able--to acquire a nuclear weapon.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Schneider.
    And seeing no further requests for time, I will introduce 
our witness.
    But I would like to remind the audience members that 
disruption of committee proceedings is against the law and will 
not be tolerated. Although wearing themed shirts while seated 
in the hearing room is permissible, holding up signs during the 
proceedings is not. Any disruptions will result in a suspension 
of the proceedings until the Capitol Police can restore order.
    And I am so pleased to welcome our witnesses here this 
morning. I would like to welcome back a good friend of our 
committee, Dr. Olli Heinonen, who is the Senior Advisor on 
Science and Nonproliferation at the Foundation for Defense of 
Democracies. Prior to this, Mr. Heinonen served as Deputy 
Director General of the International Atomic Energy Agency and 
as head of its Department of Safeguards. Dr. Heinonen is also a 
Senior Fellow at the Harvard Kennedy School of Government's 
Belfer Center for Science and International Affairs. We always 
look forward to your testimony, Dr. Heinonen. Thank you for 
being here.
    And next, I am pleased to welcome back Ambassador Mark 
Wallace, who is the Chief Executive Officer of United Against 
Nuclear Iran, UANI, and the Counter-Extremism Project. Prior to 
funding UANI, he served as Ambassador to the United Nations, 
Representative for U.N. Management and Reform. Thank you for 
your service, Ambassador, and we look forward to your 
testimony.
    And finally, we would like to welcome Dr. Philip Gordon. He 
is the Mary and David Boies Senior Fellow in U.S. Foreign 
Policy at the Council on Foreign Relations and a Senior Advisor 
at Albright Stonebridge Group. Dr. Gordon served on the 
National Security Council as a Special Assistant to the 
President and as the White House Coordinator for the Middle 
East, North Africa, and the Gulf Region. Dr. Gordon also served 
as Assistant Secretary of State for Europe and Eurasian 
Affairs. Thank you so much, Dr. Gordon, and we look forward to 
your testimony.
    And as I said, your testimony will be made a part of the 
record. We will begin with Dr. Heinonen. Thank you.

 STATEMENT OF OLLI HEINONEN, PH.D., SENIOR ADVISOR ON SCIENCE 
  AND NONPROLIFERATION, FOUNDATION FOR DEFENSE OF DEMOCRACIES 
  (FORMER DEPUTY DIRECTOR GENERAL OF THE INTERNATIONAL ATOMIC 
                         ENERGY AGENCY)

    Mr. Heinonen. Chairman Ros-Lehtinen and Ranking Member 
Deutch, thank you for giving me the opportunity to speak today 
about the President's decision, the next steps.
    I will focus on the verification aspects of the JCPOA. Its 
advocates have characterized it as being the most intrusive 
nuclear inspection regime ever. They also claim that the 
measures put in place by the JCPOA block all of Iran's pathways 
to a nuclear weapon.
    To the point of JCPOA verifications, I would like to argue 
that more forceful implementation and enforcement is needed. As 
for the deal's ability to block Iran's nuclear weapons pathway, 
it is not that simple. Indeed, arms control and 
nonproliferation agreements do not guarantee that the state 
will be blocked from getting nuclear weapons. They seek to 
deter it via early detection. Such deterrence is only 
successful when comprehensive verification measures are fully 
implemented in a manner that covers both declared and 
undeclared nuclear activities and facilities in a state. And as 
some of the terms of the JCPOA begin to sunset as early as 6 
years from now, Iran's nuclear program will be in a stronger 
position capability-wise with a lower breakout time.
    To address a number of the JCPOA's flaws, the deal's 
implementation provisions must be made far more robust and 
meaningful. To that end, several additional measures are 
necessary, and I would like to make to this end six points.
    First, the IAEA's quarterly reports on the deal's 
implementation must be enhanced by providing more details on 
the actual implementation of the deal by the IAEA and on Iran's 
adherence to its obligations. Such requests are consistent with 
Article 5 of the IAEA Iran Safeguards Agreement, which 
authorizes the IAEA Board of Governors to be provided with the 
information necessary for the implementation of the agreement. 
My written testimony lists a number of specific suggestions 
which would make the reports on Iran more transparent, enabling 
readers to assess independently and in a timely manner progress 
made and any obstacles encountered.
    Second, the IAEA should complete the followup access 
related to its investigation of the possible military 
dimensions of the Iranian nuclear program. These include site 
visits, interviews with the scientists, and investigating the 
reason for the presence of uranium particles at Parchin. It is 
also essential to establish a baseline for future verification 
that nuclear-weapons-related activities have not, and will not, 
be reconstituted in Iran. The IAEA has to be more specific in 
reporting its verification activities related to JCPOA's 
Section T, which prohibits activities which could contribute to 
the design and development of a nuclear explosive device.
    Third, the JCPOA and related agreements must apply to all 
sides related to the Iranian nuclear program, with no 
exceptions to military sites or any other sites. For instance, 
given the fact that Iran manufactured most of its key 
components, such as centrifuge rotors and bellows, at military-
owned workshops, those sites with the necessary expertise and 
tools should be subject to the monitoring.
    Fourth, Iran should ratify the Additional Protocol well 
before the sunset provisions take effect and before the IAEA 
issues a broader conclusion about the nature of Iran's nuclear 
program. In accordance with the IAEA verification principles, a 
broader conclusion is only drawn when the Additional Protocol 
is ratified and fully implemented. There is no reason why Iran 
should be an exception from such a practice.
    Fifth, Security Council Resolution 2231, limitations on 
ballistic missiles, should be extended to cruise missiles, 
while the restrictions on missile ranges and payloads should be 
lowered.
    Sixth, and the last, but not the least, Iran's 1-year 
breakout time should be extended indefinitely into the future, 
while enabling more effective enforcement. By maintaining a 
breakout time of at least 1 year, it would ensure that the U.S. 
will have sufficient time to respond to Iran's violations 
before it crosses the nuclear weapons threshold. Current 
breakout time is calculated based both on the number and type 
of centrifuges Iran has installed as well as known amounts of 
uranium feed materials available. This is not enough. What 
needs to be also included in the estimates is the size and 
types of stocks of uninstalled centrifuges as well as the time 
required for their commissioning. They also need to take into 
account Iran's nuclear capabilities as it continues its R&D on 
better centrifuges.
    And as the IAEA is far from determining that there are no 
undetected nuclear material and activities in Iran, it makes 
sense to build in uncertainties and create a buffer into our 
calculations. In other words, current calculated breakout time 
needs to be continually evaluated and new caps should be set as 
appropriate.
    Thank you.
    [The prepared statement of Mr. Heinonen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Good 
recommendations, well-thought-out.
    Ambassador Wallace, pleased to hear from you.

   STATEMENT OF THE HONORABLE MARK WALLACE , CHIEF EXECUTIVE 
OFFICER, UNITED AGAINST NUCLEAR IRAN (FORMER U.S. AMBASSADOR TO 
         THE UNITED NATIONS FOR MANAGEMENT AND REFORM)

    Ambassador Wallace. Thank you, Madam Chairman and Ranking 
Member Deutch. It is an honor to be on this panel with my two 
colleagues, and I would also like to acknowledge my many United 
Against Nuclear Iran colleagues that are behind me.
    At the outset, I must express my appreciation to you, Madam 
Chairman, for your service to this nation.
    Ms. Ros-Lehtinen. The gentleman is recognized for as much 
time as needed. [Laughter.]
    Ambassador Wallace. I was going to ask the ranking member 
for the same indulgence, and I expected the same courtesy.
    I have appeared several times and worked with this 
committee for many years, and this is perhaps my last time in 
front of you, as you will be stepping down after a 
distinguished career. It is too soon to roll out the roasting 
and all of that business.
    Ms. Ros-Lehtinen. It is never too soon.
    Ambassador Wallace. All right. But, since I am originally 
from Miami, Florida, and we both have a passion about 
University of Miami football and we have worked a little bit on 
Iran over the years, I think it is important that I speak about 
you for just a little bit of my time--just a little bit.
    You have been a trailblazer as the first Hispanic woman 
elected to Congress and the first female chairman of the House 
Foreign Affairs Committee. But, going beyond symbolism, the 
secrets to your success in Washington are simple. Your 
kindness, your courage, your decency, and in my opinion most 
importantly--and Congressman Deutch was speaking to this--your 
moral compass, are all far rare attributes that need to be here 
in Washington. I am not going to talk about the time you 
accidentally hung up on President Obama after your reelection.
    You have never been afraid to take the lead on difficult 
issues. You have bucked your own party on countless occasions, 
notably being the first Republican to support a bill repealing 
the Defense of Marriage Act. And in foreign policy you have 
become a dictator's worst nightmare. Fidel Castro once dubbed 
you ``the big bad wolf,'' a term you have worn as a badge of 
honor. But I am particularly thankful for your leadership on 
Iran policy.
    My friend, we will miss you. I have a feeling that, even 
when you do step down, you won't be quiet or silent, but I 
don't think I am going to be here or have an opportunity again 
before you go, but we will miss you. And I know I speak for 
everyone in the room on that.
    Now, to more serious business, Henry Kissinger famously 
said that the Islamic Republic of Iran must decide whether it 
is a nation or a cause. Nonetheless, those who focus on the 
role Iran has chosen to play in the world will rightly 
acknowledge that its leadership has definitely proven to be 
both a nation as well as a cause.
    While discussion of the JCPOA may be the first priority for 
Congress, we must put this into context. Regardless of one's 
view on the deal's utility, one cannot gainsay the fact that 
the geostrategic posture of Iran has improved dramatically 
since its ratification. For both the United States as well as 
Iran, the JCPOA may prove to be a sideshow. Yes, it is terribly 
flawed and should be fixed, if possible. Nonetheless, the 
overarching issue facing both the administration and Congress 
is meeting the challenge that Iranian hegemony now poses in the 
region.
    The administration has proposed a policy of rollback. It is 
Congress' duty to go even beyond this and to both hold the 
administration's feet to the fire and provide the mechanisms 
for this policy to be implemented. Only through this strategic 
reassessment and a robust collaboration between our executive 
and legislative branches can America's honor be restored and 
its interests truly be served.
    President Rouhani's own words on Monday show why this is so 
important. He said, ``The greatness of the nation of Iran and 
the region is more than at any other time. . . . In Iraq, 
Syria, Lebanon, North Africa, and the Persian Gulf region, 
where can action be taken without Iran?'' That is what 
President Rouhani said.
    We propose a variety of steps in my more detailed 
testimony. And one of the things I was going to emphasize here 
was perhaps suggesting we begin with FTO designation of the 
Quds Force as a solution.
    We provide a lot of different recommendations, but I am 
throwing away the notes for a minute because this is your last 
time and may be my last time in front of you. But I want to go 
to what Mr. Deutch said and what you, Madam Chairman, said. Our 
relative advantage, what we have done is we have spent more 
time talking to business leaders and persons swirling around in 
the Iran space than anyone else. That is what we know.
    And I will tell you what was the bipartisan consensus 
before that you guys led in a bipartisan manner. It was the 
notion that there would be ever-increasing pressure on Iran in 
a systematic way because of the work that you did and, then, 
the Treasury Department and the State Department and the White 
House would follow ever increasing that pressure. It worked. I 
am not a sanctions apologist. It doesn't work in all countries, 
but it worked in the context of Iran. Even my friends in the 
Obama administration lauded the effect of the sanctions regime 
in bringing Iran to the table. We have to get back to that 
place, and both of your comments reflect that.
    I am happy to testify about a variety of those mechanisms. 
You all know them. They are different recipes to get to the 
same meal. But that is where we have to get because of their 
incredible expansionist activities in the region and the fact 
that I, too, believe the nuclear agreement was flawed.
    Thank you.
    [The prepared statement of Ambassador Wallace follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Ambassador, and thank you for 
your testimony, and don't do that again. Thank you. [Laughter.]
    Ambassador Wallace. I don't think I have to.
    Ms. Ros-Lehtinen. Dr. Gordon, we are so pleased that you 
are joining us, and we would love to hear from you. Thank you, 
sir.

  STATEMENT OF PHILIP H. GORDON, PH.D., MARY AND DAVID BOIES 
   SENIOR FELLOW IN U.S. FOREIGN POLICY, COUNCIL ON FOREIGN 
RELATIONS (FORMER WHITE HOUSE COORDINATOR FOR THE MIDDLE EAST, 
               NORTH AFRICA, AND THE GULF REGION)

    Mr. Gordon. Thank you for having me, Madam Chairman, 
Ranking Member Deutch, and all the distinguished members of the 
committee. I also want to thank you for the honor of being 
here, and I look forward to the discussion with my two 
distinguished colleagues.
    In my longer written testimony, I discuss, also, a number 
of ideas for how the United States can not only ensure that 
Iran never gets a nuclear weapon, but also how we can more 
effectively respond to Iran's continued support for terrorism, 
use of proxies to interfere in neighboring states, development 
of ballistic missiles that threaten, or could threaten, us or 
Iran's neighbors, and persistent human rights violations which 
includes, as has been mentioned here, the unjustified and 
appalling detention of American citizens. And I hope and I am 
sure we will have a chance to discuss all of those ideas 
because I think there is a lot we can do that is consistent 
with the JCPOA and consistent with keeping the support of our 
allies, both of which I think are important principles.
    But I will use my summary oral remarks here to just make my 
core point, which is my concern that decertification under the 
Iran Nuclear Agreement Review Act risks collapsing a nuclear 
deal that is working, isolating the United States, undermining 
American credibility, and, most importantly, freeing Iran from 
its nuclear constraints. As has been discussed, we all know 
President Trump announced on October 13th that he would not 
certify the Iran nuclear deal according to the terms of INARA, 
even though the U.S. intelligence community, the International 
Atomic Energy Agency, our European allies, and numerous Israeli 
security officials, all concluded that Iran was complying with 
it. In making that decision, the President has passed near-term 
responsibility for the issue to Congress, threatening to 
``terminate,'' and I quote, the JCPOA if Congress and our 
allies do not take measures to ``address the deal's many 
serious flaws.''
    The administration's game plan seems to be to use the 
threat of walking away from the deal to get Congress and the 
allies to agree on changes and for Iran back to the table to 
accept a ``better deal.'' And legislative ideas are circulating 
about how to do that, including addressing ballistic missiles, 
access to military sites, and extending the limits on Iran's 
uranium enrichment.
    Now I would be the first to say these are all desirable 
goals. I don't think anybody would disagree with that. The 
problem is that the United States cannot unilaterally alter 
fundamental terms of a deal, and I think it is wishful thinking 
to imagine that our allies or other parties will agree to do 
so.
    The JCPOA resulted from more than 2 years of difficult 
multilateral negotiations and has been endorsed by the U.N. 
Security Council and is supported by virtually every country in 
the world, including countries like Japan, India, South Korea, 
and others, whose cooperation with sanctions and cuts in 
Iranian oil purchases was essential to get the deal in the 
first place.
    Unilaterally amending the provisions of that deal, whether 
by including new issues or attempting to extend some of its 
provisions indefinitely, would be considered by all of our 
allies in Iran violations of the deal, just as we would 
consider it impermissible for Iran to unilaterally alter its 
terms. The leaders of Britain, France, and Germany, and the EU 
have already made clear that they are concerned about the 
potential implications of the President's decertification, and 
the EU is already considering activating blocking statutes that 
would forbid its companies from cooperating with U.S. secondary 
sanctions.
    But, even if our European allies, along with Russia and 
China, were somehow persuaded to seek changes, it is hard to 
see how Iran would ever agree to give up now what it would not 
give up when the international pressure campaign was at its 
peak. Of course, if our allies in Iran refuse to amend the 
deal, the United States can always pull out unilaterally, as 
the President has threatened to do. Indeed, decertification 
gives Congress the authority to use expedited procedures to 
reimpose nuclear sanctions for 60 days from the date of the 
President's announcement. And even if Congress chooses not to 
do so, the President, as he reminded us, can reimpose those 
sanctions at anytime. Either of those steps, however, would 
almost certainly lead to the collapse of the deal.
    And all of these scenarios triggered by this 
decertification decision I think would have serious 
consequences. They would isolate the United States, leaving it 
alone to explain why it killed a deal that they believed was 
working and make it difficult to reassemble that sanctions 
coalition. It would badly damage the United States' reputation 
as a reliable partner and diminish our ability to persuade 
other potential proliferators, including North Korea, that the 
United States would respect the deal, even if they made painful 
concessions.
    And most importantly, they would free Iran from all the 
restrictions of the JCPOA, including extensive inspection 
provisions. If we walk away from the deal, Iran will likely 
assume its frozen nuclear activities, potentially leaving us 
with terrible alternatives while acquiescing to their advances 
or using military force to temporarily set them back. I think 
this approach is particularly unfortunate because I do believe 
that JCPOA is doing what it was designed to do, which is 
prevent Iran from getting a nuclear weapon.
    Now I know some Members are concerned about the deal's 
sunset provisions, which, again, I think we will have a chance 
to talk about, but remember that, even after some of the deal's 
restrictions expire on uranium enrichment in 2025 or 2030, Iran 
is permanently obliged never to seek, develop, or acquire a 
nuclear weapon, permanently committed never to engage in 
activities that could contribute to the development of a 
nuclear explosive device, and will continue to adhere to the 
IAEA's Additional Protocol, its most comprehensive and 
intrusive inspections regime. The bottom line is, if we leave 
the deal today out of concern about sunset provisions, we will 
effectively be bringing about immediate sunset with no 
constraints on enrichment, none on research and development, 
ballistic missiles, or comprehensive inspections.
    Let me just end, if I might, with one point about North 
Korea which has been brought up, and is often brought up, in 
this context by critics of the JCPOA as a potential reason to 
pull out of the deal. I actually think the North Korea 
precedent carries a different message. Not long after the 
Clinton administration had negotiated an agreement in 1994 to 
stop North Korea's nuclear program, Congress withdrew support 
for that agreement, rejecting what it considered to be 
appeasement of a rogue state and insisting that the Clinton 
administration negotiate a better deal. In part as a result, we 
ended up not with a better deal, but with no deal at all, and 
the nuclear-armed, ballistic-1missile-producing North Korea 
that we are dealing with today.
    We will never know if it would have been possible to 
effectively implement an agreement with the North Korean regime 
that we know tried to cheat and may have been determined to 
seek nuclear weapons, but we do know the result of not trying 
to do so. And I think Congress and the administration should 
keep that precedent in mind as they consider whether to risk 
killing a deal that is working now and rolling the dice that 
they can produce an even better one.
    Madam Chairman, members of the committee, thank you, and I 
look forward to your questions.
    [The prepared statement of Mr. Gordon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Dr. Gordon. Thank 
you for joining us.
    And thanks, all of you, for your testimony. Clearly, we 
have a lot to address here.
    Dr. Heinonen, I would like to start with you. I wanted to 
touch on an issue you raised in your testimony and an issue we 
heard 2 weeks ago, also, from David Albright when he testified 
before our full committee. And that is regarding Iran's likely 
violations of some of the conditions of Section T. Could you 
tell us why you believe Iran is likely in violation of Section 
T, why the IAEA would require access to military sites for its 
verification, and why IAEA access to military sites in general 
is critical to being able to certify and verify the JCPOA?
    Mr. Heinonen. Thank you, Chairman Ros-Lehtinen.
    When I look at Section T, and I look at the conclusions of 
the IAEA report, I cannot read the report in such a way that 
the IAEA states that Iran is in whole compliance with its 
obligations under Section T. Why do I say so? Because what the 
IAEA addresses, that it is monitoring and verifying Section T. 
It doesn't tell, like we used to say in 2003 when we had the EU 
3 agreement, where the centers continued and said there is no 
indication that Iran is in noncompliance with this undertaking. 
So, the IAEA leaves this a little bit open in the text, and 
this is why I request or suggest that the text should be more 
precise. Tell us, is Iran fully complying?
    Then comes the second part of this exercise, which was also 
erased. It is when the IAEA says that it verifies Section T, at 
the same time the IAEA Secretary insists that they have never 
visited during this implementation period any military sites. 
So, it is difficult to understand which kind of methodology the 
IAEA uses to monitor, for example, these multi-point detonation 
systems, which certain types of them are proscribed under 
Section T. So, how can the IAEA come to the conclusion that 
such activities don't exist? Or is it actually that the IAEA 
has not been yet able to verify?
    So, therefore, it is important that the IAEA comes out and 
tells us if there is a problem and, then, addresses the problem 
and has those accesses and tells us what exactly has been done. 
And this, I think, is very important to the creating of the 
reports and critical to the verification system. There should 
be no limitations on accessing those places because Section T 
is an obligation for Iran to implement.
    Ms. Ros-Lehtinen. That is very clear. Thank you so much.
    Ambassador Wallace, you state that the key piece of 
leverage that we have on Iran is economic pressure. As I 
mentioned, our European friends--and you have mentioned it as 
well--have entered into many deals with Iran worth billions of 
dollars. In other words, they have significant economic 
interest in Iran. They have not taken any action against Iran 
on anything non-nuclear-related, partly because they don't want 
to damage their economic opportunities in Tehran. And as you 
noted, we don't have the leverage now that we had previously 
over Iran, but we have leverage with the EU to seek a better 
deal.
    So, I ask you, how do we leverage this opportunity now to 
get the EU to both work with us to get a better deal and to 
take serious action against Iran's non-nuclear-related 
activity?
    Ambassador Wallace. Thank you, Madam Chairman.
    Look, this committee and the group of people that worked in 
the Iran space became expert at applying economic pressure to 
bring Iran to the table and to influence their economy. The 
charts that we have provided here show economic data associated 
with the time of sanctions before, during, and after the JCPOA. 
And you can see the effect that you all had and the 
administration had related to Iran. We have to get back to that 
place.
    And I would assert that, as Iran has used the JCPOA to 
promote its activities, they have used the cover of the JCPOA 
as if everything else is hands-off. We can use our concerns 
about the JCPOA and our concerns about Iran's behavior to drive 
the leverage to impose additional economic pressure on Iran.
    Mr. Deutch, Chairman Ros-Lehtinen, you all have done this 
for years, and that is, frankly, what led to the JCPOA. And I 
would just say we have to take a deep breath about the 
decertification issue. We have a lot of fake debates in 
Washington these days, and I would suggest that, with due 
respect, the decertification was a little of a fake debate. The 
sky didn't fall with certification or not certification. Now we 
have to deal with Iran's behavior. As Iran did not deal, and 
our Government did not want to include a variety of issues in 
its negotiations in the JCPOA, it carved out everything from 
missiles to terrorism, to human rights.
    Let's now readdress those. Let's respect the JCPOA as best 
as we can. Let's use our allies and our mutual concerns about 
Iran's behavior and our mutual concerns about the JCPOA, and 
the continuing leverage that we have and that you all can 
provide, by enacting ever-increasing economic pressure to drive 
supplemental agreements or other pushback of Iran, such as, as 
Secretary Tillerson said the other day, why are the Shia 
militia still in Iraq? We effectively allowed them to digest 
Iraq like a python eating prey.
    We have to push Iran back, and we have to use our economic 
pressure to do that. It has worked in the past; it can work 
again, but it requires a bipartisan consensus. And this 
committee has always been able to do that.
    Ms. Ros-Lehtinen. Thank you very much for that thoughtful 
response.
    And Mr. Deutch has opted to be the closer. So, we will turn 
to Mr. Schneider.
    Mr. Schneider. Thank you and, again, thank you for holding 
this very important hearing.
    To the witnesses, thank you for your insight and sharing 
your perspectives.
    Ambassador Wallace, I want to start with you. In your 
submitted testimony, one of the things you talk about is, and I 
will quote you, ``the absence of a serious holistic strategy to 
counter Tehran's non-nuclear destabilizing behavior in the 
Middle East and beyond.'' And you lay out a number of steps 
here, but, more broadly--and I will open this to everyone--what 
are the dynamics of the absence of that strategy right now? Why 
is it so important that the United States articulate a clear 
and comprehensive strategy?
    Ambassador Wallace. Look, I read everyone's statements as 
part of my preparation for this. Congressman Deutch, I read 
yours. I agreed with almost everything that you said. And one 
of the things that you said--in answer to Congressman 
Schneider--was that we have always sort of had a holistic 
strategy as part of our approach. What was good, I think, about 
the President's statement is he outlined all of Iran's other 
behavior and we have to begin to push back on that behavior, 
and we can do that through economic pressure.
    It is not clear to me that that has ever been laid out. 
Look, I fault the administration under which I served for not 
laying that out more deliberately. I give some fault to 
President Obama and his team for not laying that more 
deliberately. I don't think it was as effectively laid out.
    This committee, in my opinion, gets it because you have 
been enacting most of the legislation about it. But, when you 
look at that holistic strategy from their adventurism around 
the region, from their support of terrorism, their testing of 
ballistic missiles, certainly the less good of provisions of 
the JCPOA, we can use the tools of legislation, the tools of 
Treasury sanctions, the tools of State Department sanctions, 
including the foreign terrorist organizations.
    It is all about risk. I have talked to these companies. We 
talk to them, thousands of them. They are averse to risk. We 
have to explain to them that the risk of doing business in Iran 
because of its intransigent behavior in the region is too great 
to go there. If Western businesses flood into Iran to support 
an IRGC-dominated economy, God forbid we are ever in a 
circumstance like North Korea, for whatever reason; we will 
have a much harder time, God forbid, threatening a military 
intervention, which no one wants, if a bunch of Western 
businesses and interests are there. So, that is why it is 
important to act and deal with all the issues that were not 
dealt with during the JCPOA.
    Mr. Schneider. And to expand, maybe I will turn to you, Dr. 
Heinonen, because you touched on this. The urgency to act now, 
it is not by ripping apart the JCPOA, if I understand what you 
are saying, Ambassador. It is doing everything around the JCPOA 
and picking up the pieces that weren't addressed by the narrow 
nuclear focus on the JCPOA. Is that a correct interpretation?
    Ambassador Wallace. Sorry, Olli.
    Mr. Heinonen. Yes, sir, to the greatest extent. There are 
authorities which the IAEA Board of Governors has, like asking 
for more detailed reporting. It has nothing to do with the 
JCPOA. It is in the normal practices which the IAEA Board of 
Governors has exercised for years, and that is just a simple 
resolution by the Board. Due to the IAEA Board practices, there 
is also no legal right. So, I think that this is an elegant way 
to get better enforcement and better reporting.
    Then, missile issues might be different because they fall 
to the domain of the U.N. Security Council, but there are ways 
and means to change the course without renegotiating every 
aspect of the JCPOA. And also, the Joint Committee has certain 
leverage and certain flexibility to do interpretations, 
particularly when it comes, for example, to breakout times and 
constraints there.
    Mr. Schneider. And how are we best positioned to make sure 
that the breakout time, as the various sunsets of the JCPOA 
fall into place, that the breakout time stays at that 1-year 
mark, that it doesn't move closer?
    Mr. Heinonen. This means, actually, as I said in my opening 
statement, continuous followup of the developments in Iran. 
When we see that they are developing better and faster 
centrifuges, then we need to access the conditions, that they 
don't expand the number of installed centrifuges more than what 
is required for 1-year breakout time, which in technical terms 
is about 5,000 of those installed.
    Mr. Schneider. I am running out of time, but to emphasize, 
that is 5,000 of generation 1 centrifuges. As they work on 
their R&D and move into the next generations, that number has 
to fall. Otherwise, they are going to have 5,000 faster, more 
efficient, which will shrink the time.
    Mr. Heinonen. Yes. Thank you. Yes, that is true; once you 
have this next generation IR-2m, it is only a quarter of that 
number of centrifuges will be permitted. But, then, comes to 
the picture another aspect which the people perhaps have not 
followed thoroughly through. It is that you can manufacture 
these more efficient centrifuges, stock them, and install them 
quickly. And this one was not as a part of the declaration.
    And as I said in my opening remarks, also, the other part 
is that I don't think the people would do much thinking how we 
are going to catch if Iran decides to cheat the system by 
having a clandestine production of those centrifuges. I think 
the provisions to that end are weak. And therefore, you need to 
have some buffer in your breakout time to overcome that 
problem.
    Mr. Schneider. Thank you. I am out of time, but just to 
reiterate what the ranking member said, that highlighting 
Iran's malign activities, past and present, and currently 
ongoing, even in the context of the JCPOA, I think the time to 
act and move forward to close those gaps, reduce those risks, 
is right now.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    Mr. Ron DeSantis of Florida.
    Mr. DeSantis. Thank you.
    Ambassador Wallace, looking at some of the reaction to the 
President's decertification, you saw some of our partners in 
Europe, you know, resounding endorsements of the JCPOA. But, 
then, you look at places in the Gulf, Israel, the UAE, I mean, 
they were happy that the President is taking a different 
course. It just seems to me that our European allies don't face 
the same threat from Iran as our Middle Eastern allies, and 
they have a lot of opportunities for business with Iran. And 
so, I guess as we go forward, I think it is good to have as 
many people on the same page as possible, but how do we get 
them to be more in line with the American perspective, the 
Israeli perspective, the Middle East perspective of people that 
are actually threatened by Iran?
    Ambassador Wallace. Thank you, Congressman.
    Look, it is a very good point. I would say that we tend to 
gloss over some of the statements of our P5+1 colleagues that 
have been favorable. For example, Emmanuel Macron, the new 
leader in France, has said some very strong and encouraging 
things regarding Iran's behavior and seems prepared to take 
action to work with us to push back on other areas of Iran's 
bad behavior.
    So, as Iran has used this agreement to expand its 
relevance, its importance, and its destabilizing behavior, with 
respect, I think the administration can wisely use a bit of our 
threat of being dissatisfied, not international interests, and 
eventually pulling out of the agreement, to work with our 
allies like President Macron and our Gulf allies to come up 
with a good plan to push Iran back in other areas and perhaps 
to have supplemental understandings about some of the 
weaknesses of the agreement, perhaps in supplemental 
agreements.
    Mr. DeSantis. Now the EU, they were pretty open in saying, 
look, if there are other malign activities when the JCPOA was 
agreed upon, look, we are willing to take actions. But have 
they taken any action since that has happened?
    Ambassador Wallace. No, and I fully agree with you. But I 
think that there has been a bit of an absence of leadership 
with the transition of power. And hopefully, we are seeing that 
here in the United States and in some of the European 
governments.
    And I would just say that the statements out of France are 
quite encouraging. If I had any say in it, I would say let's 
immediately reach out to our French colleagues and come up with 
a plan, so that the Iranians don't have bases on the 
Mediterranean and the Bab-el-Mandeb.
    Mr. DeSantis. Dr. Heinonen, it is frustrating when I hear 
about Iran complying because we don't have access to all of 
their sites. I mean, can we get access to some of their 
military sites if we want to do a prompt inspection?
    Mr. Heinonen. Under the provisions of the Safeguards 
Agreement, this is possible. All territory of Iran is subject 
to the IAEA safeguards. This is what Iran signed to when it 
signed the Comprehensive Safeguards Agreement with the IAEA, 
and, also, the provisions of Additional Protocol cover the 
whole country.
    So, what is needed, then, that the IAEA exercises fully its 
right? It certainly has to have a reason to go. As I listed in 
my testimony, there are several reasons why one should go to 
certain military sites, for example, in Iran to certify, on the 
one hand, that there is no undeclared nuclear activities going 
on and there are no undeclared nuclear-weapons-related 
activities going on. So, the rights are there.
    Mr. DeSantis. But we are not in a position; we cannot 
declare that because we just haven't gone in, right?
    Mr. Heinonen. I read, indeed, the IAEA report differently. 
For me, the wording which is there doesn't state that Iran has 
fully complied with its obligations, the way I read it. I would 
like to see, as I said before, some additional language to 
certify that the IAEA has really verified all aspects of the 
JCPOA and the Comprehensive Safeguards Agreement.
    Mr. DeSantis. Have you made recommendations about dealing 
with Iran's ballistic missile program?
    Mr. Heinonen. Yes. Actually, there are two aspects to that. 
First of all, when we think nuclear weapons program--and, look 
at North Korea as an example, this is like a tent with two 
posts. You need a delivery vehicular-assisted missile and, 
then, you need the nuclear weapon and the nuclear material 
itself. And they go hand-by-hand in tandem.
    Therefore, when the breakout times get shorter over the 
time, we need to have more constraints on the missile program 
to make sure that Iran doesn't dash to nuclear weapon 
capability. And the only way and means, in my view, to do it is 
to limit, first of all, the range of missiles, include, also, 
cruise missiles like we are including in North Korea, but for 
some reason not in Iran. And then, perhaps to reduce the 
payload capacity of those missiles and make them less offensive 
and more defensive in nature.
    Mr. DeSantis. Great. Well, obviously, that should have been 
a part of these negotiations from the beginning, and that was 
put aside at the very, very outset. And I think it was a huge 
mistake.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. DeSantis.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    Ambassador Wallace, there are many members of this 
committee who have expressed deep concern about the hollowing-
out of diplomatic posts, and that includes many ambassadorships 
and assistant secretary positions, and what impact that is 
having on our diplomatic engagement, coupled with conflicting 
messages between the President of the United States and his 
Secretary of State, and sometimes even deferring to the U.N. 
Ambassador.
    And I am wondering whether you could speak to what this 
sort of disorder, what kind of impact it is having on our Iran 
policy, and specifically, the kind of confusion that it is 
creating, what that means in terms of our partners or even our 
adversaries.
    Ambassador Wallace. It is bad, I agree with you. You should 
fund and staff those departments. In the interim, our strategic 
confusion, we should try to take advantage of.
    Mr. Cicilline. What do you mean by that?
    Ambassador Wallace. I think that our policy does appear to 
be confused, but I think that the power of this--and it is not 
good, I agreed with you.
    Mr. Cicilline. But strategic confusion makes it sound like 
you think it is actually a strategy that was----
    Ambassador Wallace. I don't know.
    Mr. Cicilline. Okay.
    Ambassador Wallace. You are asking me to interpret 
something that I can't interpret. But what I can say is that--
--
    Mr. Cicilline. I think that is actually exactly the point.
    Ambassador Wallace. Right, but my point is that, don't get 
bogged down in that. You all can use that confusion 
strategically----
    Mr. Cicilline. Yes.
    Ambassador Wallace [continuing]. To advance a narrative to 
put pressure on and seek good work with our allies.
    Mr. Cicilline. Yes. I think it is kind of a frightening 
idea of don't get bogged down with confusion for the 
administration on what their approach is.
    Dr. Gordon, maybe can you respond to that? Do you think 
that is a----
    Ambassador Wallace. I just want to respond to that. I don't 
speak with the administration.
    Mr. Cicilline. I have limited time. Ambassador?
    Ambassador Wallace. I don't speak for the administration.
    Mr. Cicilline. I understand that, but I am just saying that 
was your argument. I think that is kind of an alarming 
suggestion, frankly.
    Mr. Gordon. Congressman, I think it is deeply damaging in a 
number of ways. Even among our partners and allies, we don't 
have an Ambassador in Saudi Arabia; we don't have an Ambassador 
in Qatar. We don't have an Assistant Secretary of State for 
Near Eastern Affairs, or even a nominee. And we are trying to 
manage disputes among those critical partners who are vital to 
containing Iran. So, it is damaging in that sense.
    It is also damaging, if you think about it, whether you 
want, like I do, to find things we can do with allies 
consistent with the JCPOA, or whether you want to renegotiate 
it. You need people to do those things. You need experts and 
sanctions experts and technical experts and scientists and 
diplomats. And so, even if somehow our threat to pull out of 
the deal gets people to agree to talk on what the Europeans can 
do and what their Gulf friends can do and what Israel can do, 
you need effective diplomats who can follow up.
    Mr. Cicilline. Thank you, Doctor.
    Dr. Heinonen--and I hope I am pronouncing that correctly--
as Mr. Deutch mentioned, Monday marked the 34th anniversary of 
the Beirut bombings. In my home state we lost nine Rhode 
Islanders in those bombings and we commemorate that every year. 
And so, I would like to ask you, as we think about Hezbollah's 
continued global terrorism, support for the Assad regime, their 
nefarious activities in Lebanon, their stated aim to destroy 
the State of Israel, how can we, what can we do to best sever 
the ties between Iran and Hezbollah and around support for 
Hezbollah? What can and should we be doing?
    Mr. Heinonen. Sir, thank you very much for the question. 
This goes a little bit beyond my scope. So, I think that maybe 
Dr. Wallace wants to address that.
    But I have been spending the last 20 years of my time in 
the Middle East and I have been seeing this coming. I see it as 
a very disturbing factor. In particular, if it turns out that 
at one point of time Iran also has nuclear weapons capability 
or is a threshold state with a very short dash to nuclear 
weapons capability, those problems which we see here now in 
terms of terrorism and behavior in the region get even more 
serious. This is the only thing, in my view, which I can state 
to this topic.
    Mr. Cicilline. Ambassador Wallace, do you have thoughts?
    Ambassador Wallace. Let's sanction the Quds Force. Let's 
designate them a foreign terrorist organization. The Quds Force 
is generally--it is more complicated than that--the vehicle 
under which Iran provides support and largesse, and vice versa, 
to the Hezbollah. Let's take that step. It is controversial? I 
don't think it is. I think we should begin about designating 
the IRGC as a foreign terrorist organization. I think some of 
our allies would have some heartburn about that because the 
IRGC technically runs the military of Iran, and it would be the 
first time that we had taken such an action. But I advocate 
that we should consider that. We should debate that and have 
that on the table. That should be part of the ever-increasing 
consideration of sanctions.
    But today, right now, let's designate the Quds Force as an 
FTO and Qasem Soleimani as its head, and let's start pressuring 
and convincing companies and businesses around the world that, 
if you do business that touches on the IRGC and its Quds Force, 
that you run the risk of doing business with a foreign 
terrorist organization. That would provide quite a chill, in my 
opinion, at least a first step of a good freeze.
    Mr. Cicilline. Thank you very much.
    I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline.
    And I am so pleased to yield to my Florida colleague, Mr. 
Mast.
    Mr. Mast. Thank you very much, Chairman.
    I want to look at a different side of the Joint 
Comprehensive Plan of Action. It has been readily available for 
everybody to see, especially in the past week, how the Obama 
administration, Hillary Clinton, the Clinton Foundation have 
all worked to sell uranium to Russia. I would personally call 
it proliferation. So, I want to go with a few questions related 
to that.
    Would you say--and this is open to any one of you--that the 
JCPOA does allow for Russia to expand its ties with Iran?
    Ambassador Wallace. I think one of the problems with the 
JCPOA--and we have to remember, the JCPOA, 58 Senators were 
generally, even though we didn't have the vote on it, were not 
in support of the JCPOA. I think it was 269 or 270 Members in a 
bipartisan manner.
    And the JCPOA, one of the criticisms at the time--and it 
did have strings--was that it really was a narrowly-constructed 
nuclear nonproliferation agreement plus a little bit more. It 
didn't touch on issues like that, Congressman, and I think that 
was one of the problems that we had and that was one of the 
issues that we had, that Iran is--the first trip that 
representatives of Iran made after signing the JCPOA, in my 
opinion, was to Moscow, because they were looking for allies in 
the region, whether it be Syria or otherwise. So, I think that 
is one of the weaknesses that you identify and you are 
absolutely right, that is a problem.
    Mr. Mast. It was stated by the Russian Foreign Ministry 
that the deal was based upon what was articulated specifically 
by Vladimir Putin. That was a quote from the Russian Foreign 
Ministry after the deal was brought about.
    I would like to ask you, as part of the JCPOA, did it lift 
sanctions on Russian sellers of illicit munitions, illicit 
arms? Was that part of the JCPOA?
    Mr. Gordon. Did it lift sanctions on Russian sales of 
illicit arms? It provided a pathway to lifting a U.N. Security 
Council resolution on arms sales to Iran, which was implemented 
in the context of U.S. leadership bringing the world together 
to deal with this particular set of issues.
    And having been involved in the negotiations, I can tell 
you that all of these things were desired by the United States. 
We would, obviously, have loved to have a deal that prevented 
arms sales to Iran forever. That included ballistic missiles. 
That included Iranian intervention in the region.
    But you have to remember that the reason we were able to 
get this international sanctions coalition into place is that 
we were able to forge a consensus that, remarkably, in fact, 
even included Russia, to deal with the nuclear threat, which 
was the prominent issue of most concern to us and everybody 
else involved.
    Mr. Mast. Does Russia build and operate reactors in Iran?
    Mr. Gordon. There is one Russian-built and -operated 
reactor at Bushehr and, then, Russia takes the spent fuel and 
ensures that it is not a proliferation risk.
    Mr. Mast. Is part of the deal that it allows shipments of 
uranium from Iran to Russia?
    Mr. Gordon. Well, when Iran got rid of 97 percent of its 
uranium stockpile, part of that process was getting rid of that 
uranium and sending it to Russia, which we thought was a 
positive thing.
    Mr. Mast. So now, Russia is acquiring both the uranium of 
Iran and the United States of America?
    Mr. Gordon. Russia is a nuclear weapons state which has 
lots and lots of uranium and enriched uranium. And again, we 
thought it was a better thing to have Iran's stockpile of 
enriched uranium in Russia, which has more than enough uranium, 
than in Iran. So, that was an important positive part of the 
agreement.
    Mr. Mast. From one known adversary to another. Would you 
say that this deal, the Joint Comprehensive Plan of Action, 
brings Iran closer to the West or closer to Russia?
    Mr. Gordon. I don't think it necessarily brings Iran closer 
to the West because that wasn't the point of the deal. The 
point of the deal was to ensure that Iran, which when the deal 
was negotiated was on the verge of a potential weapons 
capability--we assessed a couple of months away from having 
enough fissile material for a bomb--the deal was designed to 
deal with that. And if we had a way to also make it less of an 
adversary--and again, I think we will come back to, and I have 
already discussed, some of the many other ways in which Iran is 
a threat to the United States--but the deal wasn't designed to 
bring Iran closer to the West. It was designed to deal with the 
nuclear threat.
    Mr. Mast. I thank you for your answers. I think that is 
always an issue when we have deals that we are bringing about 
that do not benefit the United States in a way that I think 
most of us would like to see. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Mast.
    And now, we turn to Mr. Lieu of California.
    Mr. Lieu. Thank you, Madam Chair.
    I want to thank the witnesses for your time and your 
testimony today.
    I want to follow on the comments from the gentleman from 
Florida. I am pleased to see there is bipartisan recognition 
that Russia is not our ally and Vladimir Putin is not our 
friend. I hope my colleagues across the aisle will contact the 
President of the United States and ask him why he blew off a 
deadline to impose sanctions on Russia, especially after 
Congress passed a bipartisan law on sanctions.
    Now I would like to ask about your comments, Mr. 
Ambassador, about strategic confusion. What you call strategic 
confusion I call total and utter dysfunction at the highest 
levels of the Trump administration when it comes to foreign 
policy.
    Specifically to the Iran deal, we see that the President 
says that he wants to get out of the Iran deal. In fact, when 
he campaigned, he said he was going to rip up the deal. At the 
same time, we have Secretary of Defense Mattis saying it is in 
the best interest of the United States to stay in the deal. We 
have Secretary of State Tillerson saying it is in the best 
interest of the United States to stay in the deal. So, today, 
on Wednesday, October 25th, I have a very simple and basic 
question. What is the official policy of the Trump 
administration on the Iran deal? Do they want to get in or stay 
in or do they want to get out?
    Ambassador Wallace. If you think you have got the guy here 
that is going to try to defend that, you are wrong. And no 
matter the number of Bibles I am going to swear on, I don't 
have an answer for you. So, you can pass it to somebody else.
    Mr. Lieu. All right.
    Ambassador Wallace. I don't speak for the administration.
    Mr. Lieu. Any other members of the panel, can you explain 
the official policy of the Trump administration, as we sit here 
today? It is a very simple question.
    Ambassador Wallace. I think Phil should take it. 
[Laughter.]
    Mr. Lieu. I mean, if you can't, that is fine. Just say you 
can't explain it. I get that. I can't.
    Mr. Gordon. I don't speak for the Trump administration. Do 
you mean broadly? I mean, as I articulated, my----
    Mr. Lieu. We are reading the same Twitter account. We are 
reading the same statements from the same Secretaries. So, I 
just want your view as experts. What is the Trump 
administration's policy?
    Mr. Gordon. I don't know what you are asking me. Broadly 
policy or toward this decertification?
    Mr. Lieu. Towards this Iran deal. What is their official 
position?
    Mr. Gordon. Well, as I said in my opening statement, my 
understanding of their game plan is to threaten to leave it, to 
force Congress and allies to agree to change it. And I 
expressed my own skepticism if that is possible and my concerns 
that that game plan, while I think the Ambassador is right that 
in the short-term the sky is not falling, and there is no 
reason to believe the deal collapses immediately because of 
that step, I worry that is has set in place a process that 
could lead to the collapse of the deal with nothing in place to 
follow it. So, I am very worried about it.
    Mr. Lieu. Doctor, do you have--I am just curious about your 
view as an expert, if you know what the Trump administration's 
official policy is on the Iran deal, as we sit here today.
    Mr. Heinonen. The way I read this piece is it was a long 
time in a painful mission on the IAEA. My conclusion is that 
the United States of America's Government is reviewing the 
situation and is looking forward what to do, and to that 
extent, has also asked the opinion of the Congress.
    Mr. Lieu. Thank you.
    So, let me tell you why strategic confusion, or as I call 
it, total utter dysfunction, is harmful to the United States. 
It makes it very confusing to the American public, to Members 
of Congress, to you on the panel, to world leaders, to 
understand what our strategy is, what our policy is. And 
moreover, it totally undercuts the credibility of Secretary of 
State Rex Tillerson. So, when Secretary of State Tillerson now 
talks to Members of Congress, if he were to talk to you, if he 
were to talk to world leaders, we don't actually know who he is 
speaking for. Is he speaking for himself? Is he speaking for 
the President? What policy is he advocating that has any 
support behind it? And that causes massive problems. It makes 
it very hard to engage in diplomacy.
    And the dysfunction also has resulted in numerous positions 
not being filled. I know that the vacancy for their Assistant 
Secretary for International Security and Nonproliferation has 
not been filled. Do you know, as of today, has the President 
nominated anyone yet for that post? It is a yes-or-no or you 
don't know. Anyone on the panel? I don't think he has. I think 
that is a problem, and I hope you would agree that that 
probably is a pretty important position if we are dealing with 
nuclear nonproliferation issues.
    So, it is my hope that this administration gets its act 
together. And for anyone who believes strategy incompetence and 
confusion is good, I just have one rhetorical thought 
experiment. Think for yourself, would any of you have wanted 
unpredictability, confusion, or dysfunction during the Cuban 
Missile Crisis?
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Lieu.
    And now, I am pleased to yield to Mr. Fitzpatrick of 
Pennsylvania.
    Mr. Fitzpatrick. Thank you, Madam Chair.
    And thank you to the panel for participating.
    I have made my views on the JCPOA very clear in this 
committee. To inject $150 billion in previously-frozen assets 
into the Iranian economy and the lifting of sanctions, which by 
most measures will allow that economy to grow at a clip of 10 
to 12 percent per year to what most of us would agree is the 
world's largest state sponsor of terrorism. No anytime anywhere 
inspections, an agreement that has not been signed by a single 
government official in Tehran, not a single member of the 
Iranian Parliament. Violating the spirit of the agreement at 
best on a regular basis through its ongoing support of regional 
proxies and/or ongoing ballistic missile tests. So, given all 
of those factors, my question is, does our faith in this 
agreement depend upon our belief in the credibility in the 
Iranian regime that they are going to keep their word?
    Mr. Gordon. I would say a couple of things. First, no, it 
doesn't rely on trust that they will keep their word. It relies 
on enforcement. I think you have to assume, because they have 
cheated in the past, that they are capable of cheating again. 
So, I don't think it is matter of trusting, and that is why the 
extensive inspections regime that they are committed to 
forever. We talked about sunsets. One thing that wouldn't 
sunset was the intrusive inspection regime to assure that they 
can never get a nuclear weapon. So, I guess, no, it doesn't. It 
doesn't.
    Ambassador Wallace. If I may just slightly disagree with 
that, I think that any agreement of this sort requires trust. 
And we have heard statements that they won't allow inspections 
of military facilities. We are relying on the Additional 
Protocol down the road. And to say that, with all due respect 
to my friend Olli, that inspections are the absolute panacea, I 
think is wrong, just because, with due respect, I don't think 
there has ever been an inspections regime that has truly 
prevented a power from going nuclear if that power wanted to go 
nuclear.
    Mr. Gordon. When we talk about imperfections of the 
inspection regime, we have to compare it to the inspection 
regime that we would have in the absence of the JCPOA, in the 
absence of the Additional Protocol. In fact, no country 
operating under the Additional Protocol has ever gotten nuclear 
weapons. And keep in mind that, if we were to say this 
inspection regime is imperfect and, therefore, we don't like 
the JCPOA, we would go from this inspection regime with 
additional monitors, 24/7 cameras on declared nuclear sites, 
and the ability to access even military bases, if there is a 
basis for it, we would go from that regime to no regime 
whatever, kind of like the one we have had in North Korea for 
20 years. And that is the case for the JCPOA.
    Mr. Fitzpatrick. Mr. Gordon, with all respect, how are we 
not relying on the credibility of the regime to enforce an 
agreement that does not allow for anytime anywhere inspections? 
How is there not an element of us being forced to put our faith 
in that regime for this agreement to work?
    Mr. Gordon. Well, because we are monitoring it. I mean, I 
think the anytime anywhere is sometimes the wrong standard to 
think about. I mean, the idea, once again, would we like to 
have American intelligence personnel on Iranian military bases 
24/7? I think, of course, we would, but that has never existed. 
Other than in the context of a defeated power and occupation, 
that has never happened and will not happen, and I don't think 
any of us believe that could be the standard in Iran.
    What was important, and remains important, is that, if we 
have a basis for suspecting that they are not living up to 
their obligations, not only not to acquire a nuclear weapon, 
but not even to seek or develop or do R&D on weaponization 
activities, if we have any basis for that, then we need access 
to those bases, and have it. And as Olli said, the inspection 
regime provides for that.
    I actually think we have a better chance of getting that--
and if not, we have a crisis and, then, all of the means are 
available, just as if we didn't have the agreement. I think we 
have a better chance of getting that access if we are living up 
to the regime, the JCPOA on our side and can go to the IAEA and 
our allies and explain why we need access, rather than if we 
give the impression that our objective is actually to force the 
Iranians into a crisis and blow up the regime.
    Mr. Fitzpatrick. And is it your belief that Iran's ongoing 
support of regional proxies is not undermining the spirit of 
this agreement at best?
    Mr. Gordon. Like I said, the agreement was to stop them 
from getting a nuclear weapon. I want to be absolutely clear 
that their support for proxies and terrorism in the region is 
something that should be an absolute priority of the United 
States to deal with, and there are ways of doing so consistent 
with the JCPOA. I would submit, respectfully, that not having 
the constraints on the nuclear program, unless we could also 
get every other American objective vis-a-vis Iran, could lead 
to us having neither. And that is why I think we need to deal 
with the proxies and support for terrorism, but it is a good 
thing to be constraining their nuclear program in the meantime.
    Mr. Fitzpatrick. My time has expired. Madam Chair, I yield 
back.
    Ms. Ros-Lehtinen. Thank you, Mr. Fitzpatrick.
    Mr. Boyle is recognized. And I want to say on behalf of 
Ambassador Wallace, a fellow ``Cane,'' and I, we look forward 
to the University of Miami beating Notre Dame coming up pretty 
soon. [Laughter.]
    Mr. Boyle. Madam Chair, I regret that you just uttered fake 
news during this subcommittee, and I look forward to Notre Dame 
beating your alma mater. [Laughter.]
    Mr. Connolly. That would be huge. [Laughter.]
    Mr. Boyle. Thank you. Thank you, Madam Chair.
    Actually, my line of questioning or commentary probably 
segues nicely from what Dr. Gordon was last saying. One of the 
criticisms or shortcomings that I saw in the JCPOA was that it 
didn't address Iranian funding of terrorism, its funding of 
Hezbollah, its involvement in Syria, what it is doing to 
support Hamas, et cetera.
    Now advocates of the JCPOA pointed out that, well, wait a 
minute, that is not what it was designed to do; this is just 
dealing with the narrow issue of the nuclear program and that, 
outside the JCPOA, nothing prevented Congress from acting in 
those areas.
    Once we signed up to the JCPOA with the international 
community, and it took effect, we moved forward in this 
committee on a pretty strong bipartisan basis, and in Congress 
on a strong bipartisan basis, and passed pretty strict 
sanctions this summer to do exactly that. So, to now revisit 
the JCPOA a couple of years after the date on which it went 
into effect, after we have already released approximately $115 
billion, I am not sure what advantage we get out of that at 
this point in time.
    Also, when keeping in mind that the Iranian issue is not 
the only issue out there, that in my view the single most 
important foreign policy issue we are dealing with at the 
moment is North Korea, I am not sure how it helps our efforts 
to negotiate North Korea away from developing its nuclear 
program if at the same time we are abrogating an agreement we 
made on a nuclear program with Iran.
    So, given all of that, and as we are wrestling with this 
here in the United States and in the Capitol, those of us who 
were not enthusiastic of the deal or those of us who were 
mixed, I am curious what the view is in Europe. President 
Macron in France made a statement that he saw shortcomings in 
the JCPOA, especially with the sunsets, and wanted to work on 
that. But there has obviously been no enthusiasm for the 
approach that President Trump has singled out with unilaterally 
pulling out of the deal. So, I am wondering if any of you could 
comment on what the view is in Berlin, Paris, et cetera.
    Mr. Gordon. I would be happy to start and let them speak 
for themselves. Only hours after the President's statement, the 
leaders of Britain, France, and Germany--May, Macron, and 
Merkel--put out a very strong and clear statement that they 
took note of the President's decision; they were concerned, 
which is not a word that they use often about U.S. foreign 
policy steps, they were concerned about the potential 
implications of decertification, and they remained fully 
committed to the deal, which they thought was working.
    So, that doesn't mean it is wrong to say that Europeans 
have concerns about certain aspects of it, are willing to work 
with us on issues beyond the JCPOA, including terrorism, 
ballistic missiles, and they are, and we should follow up on 
that. But they have been absolutely clear that, having 
participated in these difficult 2-year negotiations with all 
the different parties, they know that you can't just revisit 
that in the way you said, Congressman, and just ask for those 
issues to be unilaterally revised.
    So, that is why I said earlier in my remarks I think it is 
wishful thinking to imagine that we can amend, fix, or change 
this deal. Can we look at other ways to deal with issues that 
were not in the deal? Absolutely, and we should. But I think 
Europeans have been absolutely clear, and that is why I think 
it is a dangerous path we have headed down because, if the 
President's standard really is get Congress and the allies to 
change the deal or he will ``terminate'' it, then I think we 
are in trouble.
    Mr. Boyle. I will just say in the brief time I have left, I 
was very concerned myself or disturbed by a quote the German 
Foreign Minister gave to a German newspaper that, essentially, 
President Trump's behavior over the Iran deal ``will drive us 
Europeans into a common position with Russia and China against 
the USA.'' I am wondering if we are seeing any sign of that 
happening.
    Ambassador Wallace. I don't think so. I think there are, 
obviously, some real concerns in a bipartisan manner and on the 
international stage about confusion in American policy. I don't 
speak for the administration. I said I don't want to; I am not 
going to. And I think that that is a problem.
    We have seen definitely some signs out of Europe. Look, the 
Europeans are smart; they are sophisticated; they are concerned 
about Iran. There are some big business interests in Germany 
that they have longstanding business interests. The French, I 
don't want to speak for them. I have interactions with a lot of 
these governments. But I think the French are very clear-eyed 
in the concerns about some of the shortcomings of the deal, 
about perhaps using the leverage that we could have or gain to 
have supplemental or additional concerns.
    But, more importantly to the French, I think, and I think 
something that we need to think about, is, how do we use the 
levers of power that we have or can build through actions in 
this Congress, for example, to put pressure on Iran to roll 
back Iran in other areas of its activities. I think that there 
is coalition waiting to be built in that area, in my opinion.
    Mr. Gordon. Can I just add briefly? We are alone on this 
right now. I don't speak either for the Europeans or the Trump 
administration, but the Europeans have spoken for themselves. 
And that is the risk of this strategy. If they don't join us in 
following the President's demands, the United States, which was 
only successful on this issue because we got our international 
partners onboard--I mean, you know, the United States has had 
bilateral sanctions on Iran for decades.
    Mr. Boyle. Since 1979.
    Mr. Gordon. I am sorry?
    Mr. Boyle. Since 1979.
    Mr. Gordon. We don't trade with Iran. We don't invest in 
Iran. We don't have an Ambassador in Iran. And we saw the 
results of those sanctions, all too limited, especially where 
the nuclear program grew and grew, even when we had sanctions 
on. They became effective when we started to get international 
support, and Congress had a lot to do with that. And we brought 
Europeans together. And then, miraculously, we even got 
Russians and the Chinese and, as I mentioned on my testimony, 
India, South Korea, Japan, everyone to agree on a focused 
issue, which is stopping the Iranian nuclear program. And that 
is a fantastic position for the United States to be in when we 
need that leverage. The risk with this approach, I fear, is 
that we throw it away and we become the issue. The issue is not 
Iranian compliance; the issue is American compliance.
    Ambassador Wallace. If I may, the notion that our sanctions 
were effective from 1979 for decades is wrong. Our sanctions 
were not enforced, somewhat feckless. If you look at the chart 
of one of my colleagues who put up the chart, when this 
Congress, this committee, became engaged, and others became 
engaged, an active Treasury Department, and truly put on really 
effective sanctions, and tested the theory that sanctions could 
be effective and certain types of governments were vulnerable, 
it had a profound effect on the Iranian economy.
    And I think all of us can agree that at least that, in 
part, drove Iran to the table because they were feeling 
financial pressure. We can debate about how much financial 
pressure they were feeling; I think a lot, and I think some of 
my colleagues in the previous administration would differ 
slightly. I think they would all agree that they were feeling 
some pressure.
    But those sanctions were effective. I think we have to get 
back to the place in this Congress where all of you, or most of 
you, join together to put together a sanctions plan that ever 
increased pressure and drove economic indicators during the 
time periods that are shown in these charts.
    Mr. Boyle. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Boyle. Go Canes.
    And now, I am so pleased to recognize Mr. Kinzinger, and 
thank you for your service, as I always say.
    Mr. Kinzinger. Thank you. Thank you, Madam Chair.
    And thank you all for being here and taking some time with 
us today.
    I will get back to this issue. I do want to say on the 
front end, just because it is apropos to what was just being 
discussed, sometimes leadership starts with standing alone, 
standing by yourself. I think if we decertify this deal, there 
are all kinds of questions of what happens. I think there is no 
question of what happens in 10 years, even if we certify this 
deal over and over again, which is we either have to basically 
bomb Iran to keep them from getting nuclear weapons or they are 
going to get nuclear weapons, or we have to somehow come back 
to the table and compel them to yet another nuclear deal.
    It was actually pretty interesting and pretty eye-opening. 
Jake Sullivan, a couple of weeks ago, was in front of the 
committee, and I asked him, did you guys put ballistic missiles 
on the table in your opening gambit of this attempt to get a 
deal? And he said, yes, absolutely, but we knew the Iranians 
would never agree to it, so we pulled it off.
    So, that actually reminded me of my thought that--and I 
think I said this to Secretary Kerry, or somebody before us, 
which is, you are going to get a deal at any cost. Because the 
Secretary was saying, ``We're willing to walk away from the 
table.'' No, they weren't. The Obama administration was not 
going to walk away from the table and they would give in 
whatever they needed to give in order to get a deal, including 
saying that, hey, in 10 or 15 years this thing is off the table 
and we are going to be back to nukes. So, if we look at 100-
year line of history from today to 100 years from now, a 10-
year freeze on a nuclear program is cool for the next 10 years, 
but after the 10 years, so year 11 to 90, it doesn't make 
sense. This is the issue we are dealing with North Korea, too. 
How do you, when you give somebody the ability to go nuclear, 
how do you ever enforce a nonproliferation treaty?
    The other point that was made is about Europe. Look, I have 
a lot of respect for Europe. I am a big believer in using 
multilateral approaches. I am not a unilateralist. But, at the 
same time, Europe has been rushing for the economic benefits of 
the Iran deal. So, this idea that Europe is somehow just 
genuinely concerned, maybe to an extent, but there is also a 
business reason for that. And that included, when we leveraged 
sanctions against Russia. They were resistant to that, despite 
Russian invasion of Crimea, Russian occupation of Georgia, and 
the continued fight in Eastern Europe, because it is about the 
economy.
    For the entire panel, though, I am going to shift. I was 
horrified this week to see the images of a 1-month-old baby 
starving to death in Syria. What we have in Syria is one of the 
largest human tragedies, at least in my lifetime, hopefully, in 
my lifetime. Five hundred thousand dead people, 500,000 
innocent children.
    So, in addition to supporting Assad's barbarism, Iran is 
more emboldened in its efforts to dominate Syria and its 
efforts to build a regional land bridge. And I can only 
conclude that they are going, if successful, to use that to 
threaten Israel and other allies we have.
    We didn't do enough or really anything in the last 8 years 
to sound the alarm on Iran's destabilizing activities in Syria 
and Iraq, I might add, of which I fought against them in Iraq, 
of which I also need to remind people that about a quarter of 
American soldiers that gave their life in Iraq were the result 
of Iran or Iranian technology. But I think now is the time to 
finally implement a broad strategy that counters Iran 
effectively in Syria.
    Mr. Ambassador, I will start with you, but it is a question 
for all three of you. No one should have to see those images of 
starving children caused by an Iranian-backed Assad regime 
anymore. I also met with a survivor of torture in Assad's 
prison. As he was bawling to me and recounted some of the stuff 
that I think the devil himself would look at and go, ``Man, I 
couldn't even have come up with anything that twisted.'' As he 
recounted this stuff to me, I realized this is like the shame 
of our generation to ignore what has been going on. But what 
specific pressure can we apply to the Iranians, be it sanctions 
or actual military engagement, to have an impact toward slowing 
their advance across the entire country, Mr. Ambassador?
    Ambassador Wallace. Look, I agree with a lot of what you 
said, probably all of it. The reality is that Iran--in politics 
today in Washington we oversell things. With due respect to my 
colleagues in the previous administration, one of the points of 
oversell--and, look, I get it; it is just the way it is here 
now--was that they said, somehow President Obama on 
implementation day said that Iran would rejoin the community of 
nations. I am paraphrasing. I don't remember the quote exactly.
    But what Iran did, that wasn't true. It didn't work out 
that way. I believe that President Obama genuinely believed 
that. I believe he was wrong about that. Iran ran right to 
Damascus and right to Moscow. And look, for a country that 
complained about the horrific chemical attacks that Iran 
suffered at one point, and now, very comfortably, are allowing 
their proxy Assad to do it to his own people, I think speaks 
volumes about their lack of sincerity about building off the 
nuclear agreement to whatever term, you know, rejoin the 
community of nations.
    So, I think what you propose, and I think what we are 
hearing, I hope is a bipartisan consensus, is that we have to 
push them back and we have to say to them that, if you are 
going to have militias there, if you are going to have your 
proxies there, we are going to continue to ratchet up pressure 
and do things and potentially take action against those 
proxies. If they stay there, we are not going to allow you to 
have, for example, that land bridge. We are not going to allow 
you to have the Bab-el-Mandeb. We are not going to allow that 
to happen. We want to avoid any military action, of course, and 
we should use our economic pressure and our leverage.
    I believe that our coalition, there is a coalition out 
there, actually. But I do also believe that the 2008 financial 
crisis showed that, regrettably, or favorably in this case, 
that most of the international banking transactions and 
financial transactions flow through New York, and we have a lot 
of power to control that. Let's use our leverage. Let's use 
things that aren't bullets and bombs, at least to the first 
point, to try to stop Iran and push them back. Your points 
about pushing them back are dead on, sir.
    Mr. Kinzinger. Thank you. And I am sorry the other two I 
won't, because I am overtime, but I appreciate you guys being 
here. And thank you for your time.
    And I will yield back.
    Ms. Ros-Lehtinen. And thank you for your leadership on 
always calling attention to the crisis in Syria. The 
humanitarian toll is beyond comprehension.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and thank you for 
bringing this panel together.
    I don't know that there is bipartisan consensus, Ambassador 
Wallace. I am not asking you a question. I am reacting to what 
you said. I take a fundamentally different approach. I support 
the JCPOA. Its goal was quite focused on one thing, pushing 
Iran back from the nuclear threshold as a nuclear threshold 
state. Estimates were they were within a year or so.
    Dr. Gordon, how far away are they now?
    Mr. Gordon. Now they are at least a year away, and at the 
time they were even less than a year, 2 or 3 months.
    Mr. Connolly. Well, but, Dr. Heinonen--and I assume that is 
a Finnish name?
    Mr. Heinonen. Yes, that is correct.
    Mr. Connolly. Kiitos [speaking in Finnish].
    There were metrics set in JCPOA: Enriched uranium down to 
3.68, I think. Have they met that goal, yes or no?
    Mr. Heinonen. The IAEA assessed that they are verifying and 
monitoring the Iranian--or the JCPOA. The IAEA has not 
explicitly provided the numbers there. They have given that 
story, the amount of uranium hexafluoride pure which is there.
    Mr. Connolly. But we do know that----
    Mr. Heinonen. But, for example, they have not given the 
amount of such material which is in place in Iran.
    Mr. Connolly. Well, my understanding from international 
sources is they have pretty much met the metrics set on 
enriched uranium and shipping it out of the country to Russia, 
as was indicated.
    Centrifuges, they have reduced the number of centrifuges to 
the level specified in the agreement. The plutonium production 
reactor, they have cemented it over, as was required in the 
agreement. They have allowed the inspection of nuclear 
facilities, to my knowledge, unimpeded. Is that correct, Dr. 
Gordon, or have they, in fact, impeded some of those 
inspections?
    Mr. Gordon. They have not----
    Mr. Connolly. We are arguing over non-nuclear, or we think 
non-nuclear, military facilities, and that is an argument worth 
having.
    Now, Dr. Gordon, historically, when John Kennedy proposed 
the Nuclear Test Ban Treaty to try to prevent both the Soviet 
Union and the United States from open-air testing of nuclear 
weapons, did he insist that all other objectionable Soviet 
behavior be included before we signed that agreement?
    Mr. Gordon. No, he did not.
    Mr. Connolly. I am sorry?
    Mr. Gordon. No, he did not and----
    Mr. Connolly. When Henry Kissinger and Richard Nixon 
negotiated the SALT I agreement, did they insist that all 
negative behavior on the part of the Soviet Union, or 
objectionable behavior on the part of the Soviet Union, be 
incorporated into that agreement?
    Mr. Gordon. They did not.
    Mr. Connolly. Salt II?
    Mr. Gordon. No.
    Mr. Connolly. Why would that be?
    Mr. Gordon. Because it would have been unrealistic to 
achieve all of those goals and----
    Mr. Connolly. Has there ever been a comprehensive, all-
inclusive behavioral agreement between two nations or a 
multilateral entity and a nation that you are aware of 
historically?
    Mr. Gordon. Not that I can think of, no.
    Mr. Connolly. No. So, we are dealing with a red herring.
    When my friends on the other side of the aisle, who never 
supported JCPOA and who believed that, or certainly said that, 
in fact, approving the agreement would accelerate Iran's move 
toward a nuclear threshold state, and therefore, the agreement 
itself, as Benjamin Netanyahu said before a Joint Session of 
this Congress, uninvited by the Chief Executive of the country, 
nonetheless here, that actually approving the agreement would 
be an existential threat to Israel. I would propound that, 
actually, the existential threat to Israel is less on a nuclear 
basis today than it was when he gave that speech. What is the 
difference? The approval of the JCPOA.
    Dr. Gordon?
    Mr. Gordon. I will say one thing on that, because you 
brought up both the Iraq heavy water reactor and Israel, and we 
have some friends from Israel here with us today. As I 
mentioned in my written testimony, I recall quite vividly in 
2013 meeting with Israel national security officials who were 
deeply worried about the completion, the scheduled completion 
of the heavy water reactor, because once live, it could produce 
enough plutonium for one or two weapons per year. That reactor 
is now dismantled and its core is filled with concrete, and the 
Israelis don't have to worry about the fissile material that, 
by now, would have accumulated to the point if we didn't have 
the deal----
    Mr. Connolly. Right.
    Mr. Gordon [continuing]. For six nuclear weapons.
    Mr. Connolly. So, my time is almost up. But I fear this 
administration and the decision by the President not to 
certify, and some of the criticisms still being echoed here as 
if nothing had happened, as if there were no implementation 
metrics, is going to talk ourselves right out of a nuclear 
agreement that is working, not perfect, not permanent. We can 
work toward that. And we will damage the credibility of the 
United States that hosted this agreement. Remember, our 
adversaries as well as our allies were part of this agreement. 
We will never get Russia and China to the table again if we 
renounce this agreement, nor will we ever convince Iran that it 
is worth dealing with the United States on these or other 
issues, the very ones enunciated by my friends on the other 
side of the aisle.
    If you want to make any progress at all--and I take 
Ambassador Wallace's statement to heart--don't overpromise. 
Don't overpromise. But to denigrate this agreement as if it 
hadn't achieved something quite fundamental, quite important as 
a building block, to me, is a disservice to the agreement, and 
it is going to talk ourselves right into a nuclear Iran when we 
are facing the nuclear threat from North Korea.
    I yield back.
    Ms. Ros-Lehtinen. Mr. Connolly, before I acknowledge your 
yielding back, Dr. Heinonen had put his hand up. I am 
wondering----
    Mr. Connolly. Oh, I am sorry, Dr. Heinonen. I didn't see 
you. Thank you, Madam Chairman.
    Mr. Heinonen. Thank you, Madam.
    And, sir, I have a little bit different view with regard to 
the capabilities of the JCPOA. We have to look at any timeframe 
and a longer timeframe. It is true, as you said, that the so-
called breakout time has now shortened. It is less than 10 
years--sorry--less than 1 year. It is not actually past the 1-
year mark, if you take all those items which I mentioned in my 
written statement.
    But I think where we need to focus now is this sunset 
clause after years 10, 8 and 10, how to face the situation when 
Iran starts steadily to go closer and closer to this breakout 
capability, which will be much, much less than 1 year. I recall 
even President Obama saying somewhere year 12 or 13. It is a 
question of weeks. And I think this is what the people try to 
look at now, which kind of measures can be taken, perhaps 
without abandoning the agreement? But that is now measures to 
make sure that the deal forfeits its long-term goal, which is 
to deny from Iran access to nuclear weapons.
    And a tiny, small clarification.
    Mr. Connolly. Dr. Heinonen, sir----
    Mr. Heinonen. Did you know, sir, that there is highly 
enriched uranium in Iran today? It is of U.S. origin, spent 
fuel in the Tehran research reactor. The JCPOA says that Iran 
intends to ship it out. I think we should encourage them to 
ship it out.
    Mr. Connolly. Yes. Dr. Heinonen, I want to just respond 
real briefly. I agree with you that we have got to deal with 
those sunset provisions, but how do you deal with it? Let me 
just say to you, my experience in life is, when you threaten 
somebody, having already reached an agreement, and saying, we 
have changed our minds, we want to change the terms, we are 
going to renounce that, and now we are going to make you do it 
forever, the incentive for the other party to agree to that is 
quite limited, especially when it knows that our credibility is 
now so damaged that reinstating a sanctions regime with 
international cooperation is probably not going to happen.
    And so, I think you have got to build on what we have built 
on to get the sunset provisions addressed. I fully agree with 
you. But how we do it matters a lot.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Connolly.
    And I am so pleased to yield to my friend from Missouri, 
the Ambassador Ann Wagner.
    Ms. Wagner. Thank you, Madam Chairman, for holding this 
hearing today.
    The Iran nuclear deal, as Ambassador Wallace wrote, does 
not prevent a nuclear Iran. And as Dr. Heinonen wrote, the time 
to fix the deal is now, not 6 years from now when the deal's 
sunset clauses have helped Iran establish itself as a permanent 
threshold nuclear state.
    I believe that Iran's centrifuge R&D program is an example 
of Iranian cheating on the deal. And I am also concerned that 
the IAEA continues to face access issues on the ground.
    Dr. Gordon, you argue that sanctions relief has not fueled 
Iranian expansion in the Middle East. My understanding is that 
the $1.7 billion that the Obama administration paid to Iran 
during the 2016 ransom scandal were funneled straight into 
Iran's defense budget. I believe I read that in the FDD, the 
Foundation for Defense of Democracies' report on Tehran's 
budget.
    Can you, or others on the panel, briefly explain if this 
was the case? And if it is the case, I don't understand how 
this money won't be used to destabilize the Middle East. Sir?
    Mr. Gordon. Sure. Thank you.
    Money is, of course, fungible. And so, I don't think there 
is any precise way of saying $1 went to one thing or another 
went to another. Clearly, if Iran is receiving money or having 
access to its frozen assets or able to sell oil, it gets more 
money and it can use it for nefarious purposes, which is a 
problem. I think everybody would agree that more fungible money 
for Iran to use for these purposes is a bad thing. I don't 
think, though, we can say there is some direct link to any 
particular asset that Iran has access to and its funding for 
these sorts of----
    Ms. Wagner. It is still $1.7 billion that they have used.
    Mr. Gordon. That is correct, and Iran has a budget of tens 
of billions of dollars.
    Ms. Wagner. Thank you, Doctor. Thank you, Dr. Gordon.
    Dr. Heinonen, you drew attention to Iranian Foreign 
Minister Javad Zarif, his comment that Iran will emerge from 
the nuclear deal with a stronger nuclear program. But I didn't 
see any comment in your statement about your opinion on the 
administration's decision not to certify the nuclear agreement. 
I am eager to hear your thoughts, especially in light of your 
study of the Iran regime's intentions. Sir?
    Mr. Heinonen. I didn't take any position to 
decertification. It is not in my domain. I am looking at the 
implementation of the JCPOA. Does it meet the requirements that 
it denies Iran's access to nuclear weapons in the short term 
and in the longer term? In the short term we are slightly 
better off in terms of the verification, but there are still 
important loopholes which need to be fixed in order to make it 
solid. It doesn't mean that you need to throw the agreement 
away. There might be ways and means to do some complementary 
measures.
    But the issue is the long term. It is a very unique 
situation. We have here a country which has been in 
noncompliance with its Safeguards Agreements. The IAEA has not 
even yet concluded that Iran is in compliance. Let's not forget 
about it.
    They are maintaining a sensitive nuclear program, uranium 
enrichment, with no technical economical reason. And as you 
quoted, Mr. Zarif is correct. After 8 years they will start to 
emerge from this with much more powerful centrifuges.
    Ms. Wagner. Right.
    Mr. Heinonen. And at the same time, there is no limitation 
for their missile program. So, in my view, we face a situation 
which needs fixing.
    Ms. Wagner. It needs fixing.
    Mr. Heinonen. The time to do is now.
    Ms. Wagner. Thank you.
    Mr. Heinonen. And I refer to North Korea. I was watching 
while the people were rating what happens in North Korea. Now 
we see where we are today.
    Ms. Wagner. On the same path.
    Thank you very much.
    Ambassador Wallace, I am eager to hear your perspective on 
when Congress should reimpose snapback sanctions. Your written 
statement did encourage Congress to pass legislation that 
reaffirms congressional willingness to reimpose sanctions if 
the deal is not strengthened.
    Ambassador Wallace. I think that the starting point is what 
we all learned. This committee really became the expert. We all 
learned that, if you continue to apply pressure with Iran 
knowing, and the business interests around the world knowing, 
that pressure would increase thereafter if compliance wasn't 
better, I think that is the strategic posture that this 
committee has to be in.
    And for lack of a better term, an unfortunate one, it is a 
target-rich environment when it comes to sanctioning Iran. 
There are lots of things you can sanction them for. I do 
believe there is no reason for them to have a ballistic missile 
program. Their ballistic missile program is to carry nuclear 
weapons. It is not part of the agreement, but I don't think any 
reasonable person could say that long-range ballistic missiles 
with the warheads that they have--are designed ultimately for 
nuclear weapons.
    So, I think you start with things like designating the Quds 
Force. I think this committee should start examining their 
behavior and pushing them back, strictly enforcing the 
agreement. And when they engage in a violation, it is not a 
technical violation; it is a violation, and we should indicate 
that we are willing to impose sanctions if they do.
    Ms. Wagner. Absolutely. A violation is a violation. The 
time to fix the deal is now, not 6 years from now.
    I thank you very much for all your testimony.
    Thank you, Madam Chair, for your indulgence.
    Ms. Ros-Lehtinen. Thank you so much, Ambassador.
    And now, I am pleased to yield to the ranking member, Mr. 
Deutch, for his closing remarks and questions.
    Mr. Deutch. I thank the chairman.
    I want to go back to Ambassador Wallace's initial comments 
about you, Madam Chairman, only to say that I think what 
happened here today is really an excellent representation of 
the way that you have conducted this committee. This was an 
important hearing on a critical issue with excellent witnesses, 
serious discussion, and very little political grandstanding. 
This is the way that we need to address, I would suggest, all 
issues in Congress, but it is absolutely true with respect to 
Iran.
    I would also suggest that, if you listened really carefully 
today, really carefully, you recognize that there is a 
consensus. There is a consensus. Dr. Heinonen talked about ways 
to get access to military sites that currently exist within the 
deal, and I would like to explore that in a minute. Dr. Gordon 
talked about increasing international pressure on Iran's malign 
activity, consistent with the JCPOA and working with our 
allies. Ambassador Wallace talked about meeting the challenge 
of Iranian hegemony. There is, as I said in my opening 
comments, strong bipartisan support to do all of that. And that 
is the moment that we find ourselves in.
    But the only comment I would make about the JCPOA and 
snapback sanctions, and throwing out the deal and the threat to 
walk away from the deal, is those very concerns that we have 
about the sunset provisions that are legitimate, that I share, 
we are worried about what will happen after 10 years. If we 
walk away from the deal, those sunset provisions go from 10 
years to tomorrow.
    So, I think we need to find ways to recognize this 
bipartisan commitment to focusing on what Iran is doing, 
because what Iran is doing right now is an immediate threat to 
our nation and to our allies. And so, there will be lots of 
additional discussion about the JCPOA, and I know how strongly 
people feel about it, but we cannot allow the rehashing of all 
of the pros and cons of the JCPOA to interfere with our need to 
go after what I thought was best summed up on the chart that 
shows Iranian influence spreading throughout the region.
    And Representative Kinzinger is right, and he knows better 
than anyone, as someone who faced the fire in battle with 
Iranian support and Iranian munitions that were responsible for 
killing American soldiers. He understands the need to take 
seriously what that map shows, Iran's efforts to expand its 
influence throughout, its support for terror throughout the 
region and throughout the world. It is horrific human rights 
violations.
    And as, again, my friend Mr. Kinzinger referred to, the 
fact that it is Iran's support that has helped Assad slaughter 
\1/2\ million people. And wherever you are politically in this 
country, it is impossible to not find that appalling and 
shocking, and recognize it as one of the worst human rights 
abuses in modern history.
    So, given all of that, I thank the witnesses for a really 
important discussion. And I hope that we have the opportunity 
to continue moving forward now.
    Dr. Heinonen talked about access to the military sites. Dr. 
Gordon, the JCPOA provides a means to get access, correct?
    Mr. Gordon. Correct.
    Mr. Deutch. So, Dr. Heinonen, there is a way. So, rather 
than all of the rhetoric that we have so often heard about how 
we haven't had access, isn't it appropriate for America to lead 
the effort with our allies under the JCPOA to get access to 
those military sites?
    Mr. Heinonen. [Mr. Heinonen looks up but does not verbally 
respond.]
    Mr. Deutch. Yes, it is. I will continue. [Laughter.]
    And when it comes to increasing sanctions on Iran, don't 
tell me that--I don't accept the Iranian argument that somehow 
increasing sanctions on Iran for everything that they are doing 
that is outside the deal violates the deal, when what we were 
told at the time by everyone involved was that the JCPOA was 
meant to address the nuclear program in Iran only.
    And given that that is the case, and, Ambassador Wallace, I 
completely agree that we should be holding hearings in this 
committee--and I will talk to the chairman, and I am sure we 
will find ways to do it--about exactly what those--you have 
given a couple of ideas; there are lots of others out there. 
What steps can be taken, starting, by the way, with the 
legislation that Congress passed during the summer to impose 
sanctions on Iran, continuing with the legislation that the 
House is going to pass today to go after Iran's ballistic 
missile program? We ought to build on that. There is strong 
bipartisan support for that.
    And finally, we ought to do exactly what Dr. Gordon says, 
which is find ways to increase international pressure 
consistent with the JCPOA and working with our allies. We ought 
to pursue the offer that we heard coming out of France to find 
ways outside of the deal to address the sunset clauses, to make 
clear what American policy is going forward.
    There is not a lot that I find heartening these days in 
Congress. This morning's hearing is one such moment. I think 
there is a lot to build upon to strengthen the terms of the 
JCPOA without interfering with the relationship that we have 
with our allies; in fact, to help lead our allies. I think 
there is a way forward on additional sanctions to block Iran's 
territorial efforts and their efforts to expand influence 
throughout the region. I think it is possible to go forward and 
make sure that the IAEA is being as transparent as they should 
be and need to be under the deal.
    And I am most grateful to you, Madam Chairman, for calling 
this hearing, and to our three excellent witnesses for giving 
us the opportunity to start to pursue these things.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch, and we all 
look forward to supporting your bill on the Floor today.
    Thank you for excellent panelists, and thank you to our 
audience for being civil throughout. We appreciate it, to our 
friends in Code Pink.
    Thank you.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
